BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 20-975, Freddie
Owens v. Bryan P. Stirling, et al., was sent via Next
Day Service to the U.S. Supreme Court, and via Next
Day and e-mail service to the following parties listed
below, this 26th day of March, 2021:
Melody Jane Brown
Donald John Zelenka
James Anthony Mabry
Alan Wilson
Office of the Attorney General of South Carolina
P.O. Box 11549
Columbia, SC 29211
(803) 734-3970
mbrown@scag.gov
dzelenka@scag.gov
amabry@scag.gov
Counsel for Respondents
Michael F. Williams
Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Ave. NW
Washington, DC 20004
(202) 389-500
mwilliams@kirkland.com

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Robert Lee
Elizabeth Peiffer
Virginia Capital Representation Resource Center
2421 Ivy Rd., Suite 301
Charlottesville, VA 22903
roblee@vcrrc.org
epeiffer@vcrrc.org

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 26, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill ·Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission ExpirP.s
r ebru:i•v 14 1'1 3

